Nos. 19-267 & 19-348

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL, Petitioner,
v.
AGNES MORRISSEY-BERRU, Respondent.
ST. JAMES SCHOOL, Petitioner,
v.
DARRYL BIEL, Respondent.
On Writs of Certiorari to the United States
Courts of Appeals for the Ninth Circuit
BRIEF OF AMICUS CURIAE
INDEPENDENT WOMEN’S LAW CENTER
IN SUPPORT OF PETITIONERS
DONALD M. FALK
Counsel of Record
Mayer Brown LLP
3000 El Camino Real
Palo Alto, CA 94306
(650) 331-2030
dfalk@mayerbrown.com
ROGER V. ABBOTT
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
INTEREST OF THE AMICUS CURIAE................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .................................................... 1
ARGUMENT .............................................................. 5
A.

The Religion Clauses Guarantee All
Denominations The Right To Select
Those Who Will Educate Adherents And
Their Children In The Tenets Of Their
Faith. ................................................................ 5

B.

The Ministerial Exception Provides A
Critical Buffer Between Government
And Faith-Based Institutions. ........................ 6

C.

The Ministerial Exception Rests
Primarily On The Religious Function Of
The Employee. ................................................. 7

D. Adopting A “Rigid Formula” For The
Ministerial Exception Would Have
Severe Harmful Consequences. .................... 10
1.

A Formulaic Approach Disfavors
Religious Groups Whose
Organization And Practices Differ
From The Evangelical Lutheran
Tradition. ............................................ 10

2.

A Formulaic Approach Mires
Civil Courts In Matters of
Religious Doctrine And Practice. ........ 12

ii
TABLE OF CONTENTS—continued
Page
3.

A formulaic approach will harm
teachers seeking to participate in
religious education and parents
seeking to secure a religious
education for their children. ............... 15

CONCLUSION ......................................................... 17

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Biel v. St. James School,
911 F.3d 603 (9th Cir. 2018) ...........................12-14
Grussgott v. Milwaukee Jewish Day
School, Inc.,
882 F.3d 655 (7th Cir. 2018) ................................ 11
Hosanna-Tabor Evangelical Lutheran
Church & School v. E.E.O.C.,
565 U.S. 171 (2012) ...................................... Passim
Kedroff v. Saint Nicholas Cathedral of
Russian Orthodox Church in North
America,
344 U.S. 94 (1952) ............................................ 6, 12
Larson v. Valente,
456 U.S. 228 (1982) .............................................. 11
Lemon v. Kurzman,
403 U.S. 602 (1971) ................................................ 5
Meyer v. Nebraska,
262 U.S. 390 (1923) .............................................. 16
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979) ............................................ 3, 5
Petruska v. Gannon University,
462 F.3d 294 (C.A.3 2006) ................................... 14

iv
TABLE OF AUTHORITIES—continued
Page(s)
Pierce v. Society of the Sisters of the
Holy Names of Jesus and Mary,
268 U.S. 510 (1925) .............................................. 16
Serbian Eastern Orthodox Diocese for
United States and Canada v. Milivojevich,
426 U.S. 708 (1976) ................................................ 6
Su v. Stephen S. Wise Temple,
32 Cal. App. 5th 1159 (Ct. App.
2019) ................................................................12-13
Washington v. Glucksberg,
21 U.S. 702 (1997) ................................................ 16
Watson v. Jones,
13 Wall. 679 (1872) ................................................ 6

INTEREST OF THE AMICUS CURIAE
The Independent Women’s Law Center is a project
of the Independent Women’s Forum, a nonprofit, nonpartisan 501(c)(3) organization founded by women to
foster education and debate about legal, social, and
economic policy issues.1 Independent Women’s Law
Center is committed to expanding educational opportunity, individual liberty, and access to the marketplace of ideas. Independent Women’s Law Center respectfully submits this brief out of concern that an excessively narrow and formalistic interpretation of the
ministerial exception will permit government to interfere with the ability of parents to raise their children
with a religious education and will impair the ability
of many women to work as religious educators, a position that is often attractive because of its contribution
to a faith-based education and because of its flexibility.
Counsel for all parties have consented to the filing
of this brief.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Because the First Amendment guarantees the
“freedom of a religious organization to select its ministers,” this Court unanimously recognized that the
employment discrimination laws do not apply to “the
relationship between a religious institution and its
ministers.” Hosanna-Tabor Evangelical Lutheran
Pursuant to Supreme Court Rule 37.6, amicus states that no
counsel for a party authored this brief in whole or in part, and
that no one other than amicus or its counsel made a monetary
contribution intended to fund the preparation or submission of
this brief.

1

2
Church & School v. E.E.O.C., 565 U.S. 171, 188
(2012). This “ministerial exception * * * protects a religious group’s right” under the Free Exercise Clause
“to shape its own faith and mission through its appointments” and vindicates the Establishment Clause
by preventing the entanglement of government and
religion. Id. at 189, 190.
The scope of the ministerial exception should not
be confined to the facts in Hosanna-Tabor. Rather, in
recognizing the ministerial exception, this Court specifically declined to adopt “a rigid formula” to define
the exception’s scope. Instead, the Court enumerated
four relevant “considerations”: (1) “the formal title”
conferred on the employee by the religious organization; (2) “the substance reflected in that title,” including the “degree of religious training”; (3) the employee’s “use of that title”; and (4) “the important religious functions * * * performed” by the employee. Hosanna-Tabor, 565 U.S. at 191-92.
Although the majority “express[ed] no view on
whether” the performance of important religious functions could bring an employee within the “ministerial
exception in the absence of the other considerations”
id. at 193, the doctrinal basis for the exception indicates that the employee’s “religious functions” are paramount in the analysis. Thus, Justice Alito’s concurring opinion (joined by Justice Kagan) explained that,
properly conceived, the ministerial exception should
apply to any employee “who [is] entrusted with teaching and conveying the tenets of the faith to the next
generation.” Id. at 200.
This Court should confirm the primacy of religious
function in determining the exception’s scope. The
Court has repeatedly recognized “the critical and
unique role of the teacher in fulfilling the mission of a

3
church-operated school.” NLRB v. Catholic Bishop of
Chicago, 440 U.S. 490, 501 (1979). That role reflects
what teachers do and the mission they serve, rather
than their academic qualifications or formal title. See
ibid. The ministerial exception protects the ability of
religious organizations to choose who will instruct
others in the teachings of a faith. Contrary to the decisions below, a leadership role in a religious community is not necessary for the exception to apply. Hosanna-Tabor itself involved an elementary school
teacher who taught kindergarten through most of her
time at the school in question. See 565 U.S. at 178.
Leadership is only one way that an employee may
pass on a faith.
The other “considerations” discussed in HosannaTabor should be treated as factors that may
strengthen or rebut a showing of religious function in
marginal cases. But subordinating the employee’s religious function to characteristics that were discussed
in Hosanna-Tabor largely by coincidence would vitiate the exception for the variety of denominations that
structure and staff religious education differently
from the Evangelical Lutheran institution at issue in
that case. In particular, differences in title and formal
credentials hinge on circumstances that may be specific to each denomination, if not each community. A
rigid four-factor test—and especially a seemingly per
se rule that an employee’s religious function alone
cannot suffice to qualify under the ministerial exception—is inconsistent with Hosanna-Tabor and with
the doctrinal underpinnings of the exception itself.
The adoption of the very “rigid formula” this Court
declined to impose in Hosanna-Tabor would have significant and harmful practical consequences. Federal
and state courts would decide the level of training and

4
other credentials needed for a particular teacher of religion to qualify for the protection of the ministerial
exception. A formulaic approach also entangles civil
courts in religious disputes by forcing judges to decide
for themselves whether a particular teacher’s title and
credentials pass muster under the ministerial exception. As a practical matter, secular courts would set
employment standards for religious instructors. And
by effectively confining the ministerial exception to
the facts of Hosanna-Tabor, this formulaic approach
would discriminate against religious groups whose
teachers do not mirror the characteristics of the Lutheran teacher in that case.
That would have substantial adverse effects on
women who either (1) seek to engage in employment
as instructors in religious schools or (2) seek to ensure
that their children receive education from the religious denomination and in the educational environment of their choice. Religious instruction would become less reliable and less available as the sclerotic
effects of regulation limit the ability of religious institutions to hire instructors of their choice and to fire
those who do not live up to institutional religious or
performance standards. Fewer teachers would be
available and they would have to be paid more, limiting the supply of religious instruction. And women
who wished to serve their communities—and obtain
or supplement an income—by becoming religious instructors would be burdened by the more onerous credentialing requirements that religious schools would
have to adopt to qualify their instructors for the ministerial exception. That would present a tough dilemma for denominations that lack their own seminaries or other institutions of higher religious education.

5
The Court correctly described the ministerial exception as applying broadly to employees who “preach
[the] beliefs, teach [the] faith, and carry out [the] mission” of the religious group that employs them. Hosanna-Tabor, 565 U.S. at 196. In deciding this case,
the Court should make those religious functions the
presumptive gauge of the exception’s application.
ARGUMENT
A. The Religion Clauses Guarantee All Denominations The Right To Select Those
Who Will Educate Adherents And Their
Children In The Tenets Of Their Faith.
In various contexts, the Court has recognized the
essential role that religious schools play in propagating the faith. The Court has observed that “[r]eligious
authority necessarily pervades” a religious “school
system,” Lemon v. Kurtzman, 403 U.S. 602, 617
(1971), and that religious schools form “an integral
part of the religious mission” of the sponsoring denomination. Id. at 616. Religious schools are “a powerful
vehicle for transmitting * * * faith to the next generation,” all the more so in light of the “impressionable
age of the pupils, in primary schools particularly.”
Ibid.; see also id. at 629 (Douglas, J., concurring)
(“the raison d’être of parochial schools is the propagation of a religious faith”). Indeed, this Court has recognized that even teachers of secular subjects play a
“critical and unique role of the teacher in fulfilling the
mission of a church-operated school.” Catholic Bishop
of Chicago, 440 U.S. at 501. “In terms of potential for
involving some aspect of faith or morals in secular
subjects, a textbook’s content is ascertainable, but a
teacher’s handling of a subject is not.” Ibid.

6
In particular, this Court has observed that the
First Amendment’s Religion Clauses “protect[] a religious group’s right to shape its own faith and mission
through its appointments” and safeguard religious
groups’ autonomy “in choosing who will preach their
beliefs, teach their faith, and carry out their mission.”
Hosanna-Tabor, 565 U.S. at 188 (emphasis added).
The Court reached this conclusion based on earlier decisions holding that civil courts should stay out of intradenominational disputes over church property
when resolution would require determining which faction was the true representative of a church or faith.
Even without reference to the First Amendment, the
Court long ago held that “[t]he right to organize voluntary religious associations to assist in the expression and dissemination of any religious doctrine * * *
is unquestioned.” Watson v. Jones, 13 Wall. 679, 727,
728-29 (1872)). More recent decisions have recognized
that civil courts lack capacity to determine the proper
governance of religious institutions or which of two
factions more closely conforms to religious doctrine.
See, e.g., Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in North America, 344 U.S. 94,
116 (1952); Serbian Eastern Orthodox Diocese for
United States and Canada v. Milivojevich, 426 U.S.
696, 708 (1976).
B. The Ministerial Exception Provides A
Critical Buffer Between Government
And Faith-Based Institutions.
The mass of government regulations that operate
on the employment relationship present a significant
impediment to the ability of faith-based institutions
to choose their instructors and preserve institutional
health and integrity. The employment relationship is
heavily regulated: in addition to wage-and-hour and

7
safety regulations that apply to all employees, antidiscrimination laws relating to one or more personal
characteristics cover a substantial majority of the
workforce—if not all of it, given the vitality of socalled “reverse discrimination” lawsuits. Given this
pervasive regulation, any adverse employment decision is at least theoretically subject to challenge as
discrimination against one or more characteristics
protected by federal or state law. And if the employee
in question has accused anyone at his or her employer
of some kind of discriminatory animus in the past, an
adverse action is even more easily painted as retaliation for those protected complaints.
These multifarious employment regulations multiply the risk of litigation or government enforcement,
especially in the context of religious education where
the institution’s criteria of quality and conduct are
likely to be specific to each denomination, outwardly
subjective when viewed by a nonbeliever, and far
afield from the more objective criteria generally used
in the secular employment context. In addition, religiously affiliated, nonprofit educational institutions
generally operate on thin budgets to ensure the broadest possible access to the faithful. Relatively small increases in expense, either directly or to counteract increased litigation risk, can have profound impacts on
an institution’s ability to perform its mission.
C. The Ministerial Exception Rests Primarily On The Religious Function Of The
Employee.
The doctrinal roots of the ministerial exception
make clear that the exception can and should apply
based on religious function alone. Other characteris-

8
tics may affect the application of the exception in marginal or questionable cases, but religious function is
the only essential component.
The concurring opinion of Justices Alito and Kagan in Hosanna-Tabor correctly identified the core of
the ministerial exception in light of its grounding in
the Religion Clauses. Properly understood, the ministerial exception encompasses any employee who
“serves as a messenger or teacher of [a denomination’s] faith,” 565 U.S. at 199, and “who [is] entrusted
with teaching and conveying the tenets of the faith to
the next generation,” id. at 200. The unfettered ability to select instructional personnel is critical to this
mission. “When it comes to the expression and inculcation of the faith, there can be no doubt that the messenger matters.” Id. at 201. In short, the ministerial
exception is not limited to employees in leadership
roles or with objective credentials, but includes ordinary lay teachers who are employed to propagate the
faith.
Ministerial title and qualifications can be of probative value in certain contexts. A teacher may fall
outside the exception if she lacks the title and qualifications customarily conferred on religious instructors
by her employer. But an employer who eschews those
distinctions does not thereby lose the benefit of the
ministerial exception for its instructional staff. The
importance of teachers for the religious institutions
that employ them rests in the work that they do and
the mission they serve. While formal title and academic qualifications may often be required, they are
of secondary significance to a teacher’s ability to inculcate the values and teachings of a particular religion.

9
The decisions below refuse to apply the ministerial exception unless, in addition to religious function,
at least one of the other three characteristics in Hosanna-Tabor is present. The express rationale for this
elevation of formula over function is that, in order to
qualify under the ministerial exception, the employee
must “serve a leadership role in the faith,” a role inferred when an employee meets at least one of the
other characteristics enumerated in Hosanna-Tabor.
St. J. Pet. App. 16a.
Yet this Court could not have stated more clearly
that a leadership role is not necessary for the ministerial exception to apply. In explaining the exception,
the Court noted that it applied not only to “those who
serve in positions of leadership,” but also to “those
who perform important functions in worship services
and in the performance of religious ceremonies and
rituals, and”—as most relevant here—“those who are
entrusted with teaching and conveying the tenets of
the faith to the next generation.” Hosanna-Tabor, 565
U.S. at 200. Viewed in that light, the three characteristics beyond religious function discussed in that case
are not universally applicable factors necessary to
measure the degree of leadership in the abstract, but
rather considerations that coincidentally arose in the
Evangelical Lutheran context in Hosanna-Tabor. In
that context, the employee’s title was significant; in
others, it may have little significance.

10
D. Adopting A “Rigid Formula” For The Ministerial Exception Would Have Severe
Harmful Consequences.
1.

A Formulaic Approach Disfavors Religious Groups Whose Organization And
Practices Differ From The Evangelical
Lutheran Tradition.

Treating the four considerations in Hosanna-Tabor as a factor-counting exercise inflates the significance of formalities, such as the teacher’s job title and
credentials—which vary widely among religious
groups—while minimizing the significance of teachers’ universal function in propagating the faith and
advancing the mission of the religious employer.
As Justice Thomas warned, “Our country’s religious landscape includes organizations with different
leadership structures and doctrines that influence
their conceptions of ministerial status.” Hosanna-Tabor, 565 U.S. at 197 (Thomas, J. concurring). In some
traditions, many adults are ordained but most rarely
lead prayers. In others, few or none are formally ordained, yet many lead prayers or teach religious doctrine or practice. See generally Hosanna-Tabor, 565
U.S. at 202 & nn.3-4 (Alito, J., concurring). And approaches to religious education vary widely in the criteria used to qualify an instructor, such as formal
training, observed experience, or demonstrated erudition.
For example, Catholic religious schools, which
were originally founded and operated by religious orders, now rely predominantly on lay teachers, who are
entrusted with “[t]he integral formation of the human
person.” The Sacred Congregation for Catholic Education, Lay Catholics in Schools: Witnesses to

11
Faith, #17, 1982 (quoted in No. 19-267, National
Catholic Educational Ass’n Amicus Br. (Cert.) 1). This
entails “reveal[ing] the Christian message not only by
word but also by every gesture of their behaviour.”
The Sacred Congregation for Catholic Education, The
Catholic School, #43, 1977 (quoted in No. 19-267, National Catholic Educational Ass’n Amicus Br. (Cert.)
3).
Jewish religious schools, similarly, do not rely on
teachers who are ordained or commissioned like the
one in Hosanna-Tabor. See, e.g., Grussgott v. Milwaukee Jewish Day Sch., Inc., 882 F.3d 655, 659 (7th Cir.),
cert. denied, 139 S. Ct. 456 (2018) (concluding that an
elementary school teacher at a Jewish Day School
qualified under the ministerial exception due to the
importance of her role as a “teacher of the faith,” notwithstanding her “lay title” and absence of universitylevel formal training). See also No. 19-267, Stephen
Wise Temple Amicus Br. (Cert.) 13 (noting that “most
Jewish-school teachers” do not hold a ministerial title,
yet they “are a synagogue’s primary conduit for transmitting Jewish faith to the next generation”).
And many faiths have no clear or consistent “concept of ordination” at all. See Hosanna-Tabor, 565
U.S. at 198 (Alito, J., concurring). These include a
wide variety of religions and denominations within religions. The formulaic approach impermissibly favors
religions that have a formal ordination process and
ministerial structure over those that do not. That result violates “[t]he clearest command of the Establishment Clause”: “that one religious denomination cannot be officially preferred over another.” Larson v.
Valente, 456 U.S. 228, 244, (1982).

12
2.

A Formulaic Approach Mires Civil
Courts In Matters of Religious Doctrine
And Practice.

The ministerial exception “protect[s] a private
sphere within which religious bodies are free to govern themselves in accordance with their own beliefs”
and “guarantees religious bodies ‘independence from
secular control or manipulation.’” Hosanna-Tabor,
565 U.S. at 199-200 (Alito, J., concurring) (quoting
Kedroff, 344 U.S. at 116). But a formulaic approach
can give dispositive weight to a secular judge’s assessment of whether a religious instructor’s title has sufficient gravitas or her training was sufficiently rigorous. As noted above, the term “minister” appears almost entirely within Protestant denominations, while
the concept of formal ordination carrying specific titles varies widely in usage and significance within and
outside the Judeo-Christian tradition.
This threat of interference has manifested in several decisions, including those below. In St. James,
the Ninth Circuit reached its own conclusion about
the significance of the teacher’s various religious responsibilities. The court’s reduction of religion to a
subject that is taught in class, rather than a way of
life that is informed by religious doctrine, reflects a
failure to appreciate the vital role that religiousschool teachers play in modeling the faith, particularly to young children.
Equally stark is the decision of the California
Court of Appeal in Su v. Stephen Wise Temple, a wageand-hour action brought by the California Labor Commissioner on behalf of teachers at the Temple’s preschool. 32 Cal. App. 5th 1159, review denied, cert. dismissed, 140 S. Ct. 341 (2019). The court refused to apply the ministerial exception even though the teachers

13
“are responsible for implementing the school’s Judaic
curriculum by teaching Jewish rituals, values, and
holidays, leading children in prayers, celebrating Jewish holidays, and participating in weekly Shabbat services,” and accordingly “have a role in transmitting
Jewish religion and practice to the next generation.”
Id. at 1168. Unless the teachers shared at least one
additional characteristic with the teacher in HosannaTabor—unless they held some sort of formal title or
leadership position—the court would not apply the exception.
In viewing Hosanna-Tabor to require an analysis
of the “degree of religious training,” the Stephen Wise
Temple court impermissibly second-guessed the qualifications the synagogue required of its preschool
teachers. 565 U.S. at 191. The state court faulted the
preschool for failing to require formal religious training analogous to the eight university-level courses required by the school in Hosanna-Tabor. See 32 Cal.
App. 5th at 1168. That the teachers of toddlers were
“not require[d] to have any formal Jewish education
or training” did not diminish their ministerial role toward their young charges.
Cases in the same vein also presume to decide
whether an employee performs a ministerial function
based on the amount of time spent in explicitly and
exclusively religious activity. And they second guess
the significance of the form of instruction used, which
necessarily entails entangling the courts in matters of
religious doctrine. For example, one of the decisions
below commented that the teacher taught religion
from a “standard religious curriculum,” used a “workbook on the Catholic faith prescribed by the school administration,” and did so “for about thirty minutes a
day, four days a week.” St. J. Pet. App. 5a; see id. at

14
13a. In contrast, this Court held that the application
of the ministerial exception cannot “be resolved by a
stopwatch * * * without regard to the nature of the
religious functions performed.” Hosanna-Tabor, 565
U.S. at 193-94.
At faith-based schools, “religion” is not a dry academic subject to be “taught” exclusively during “religion classes.” Rather, it is way of life that is modeled
throughout the day, with religion classes used to provide specific instruction in doctrine, scripture, practices, and traditions. As Justice Alito explained:
A religion cannot depend on someone to be an
effective advocate for its religious vision if
that person’s conduct fails to live up to the
religious precepts that he or she espouses.
For this reason, a religious body’s right to
self-governance must include the ability to
select, and to be selective about, those who
will serve as the very “embodiment of its
message” and “its voice to the faithful.”
Hosanna-Tabor, 565 U.S. at 201 (Alito, J., concurring)
(quoting Petruska v. Gannon Univ., 462 F.3d 294, 306
(3d Cir. 2006)).
The formulaic approach to the ministerial exception applied below would impermissibly restrict religious self-governance and literally constrain a denomination’s ability to determine how it will perpetuate itself.

15
3.

A formulaic approach will harm teachers
seeking to participate in religious education and parents seeking to secure a religious education for their children.

As Justice Thomas warned, a formalistic approach to the ministerial exception “may cause a religious group to conform its beliefs and practices regarding ‘ministers’ to the prevailing secular understanding” in order to reduce exposure to legal liability.
Hosanna-Tabor, 565 U.S. at 197 (Thomas, J., concurring). This danger is especially acute in the case of
smaller religious groups that lack the resources to
spend on litigation or to invest in seminaries.
For example, one natural response to the Ninth
Circuit’s rigid test might be for religious schools to add
unnecessary certification or educational requirements
in order to mimic those in Hosanna-Tabor. This would
have predictable collateral consequences for both religious schools and their teachers. Current or prospective teachers would be faced with the additional burden of formal training—training that might be entirely unnecessary to the religious aspect of their positions. Both part-time and full-time instructor
positions are especially attractive to women with child
care responsibilities (especially if their children attend the school where they teach). But increased credentialing and training requirements would dissuade
parents with busy family lives from entering or remaining in the field of religious-school instruction.
And schools would likely face higher costs to pay for
these more credentialed teachers, even though the additional training did not increase their qualifications
for the job at hand.
The increased expense—either of government interference or the prophylactic measures necessary to

16
fend it off—inevitably would threaten the survival of
many religious schools, including part-time schools,
which often operate on the economic edge.
Increasing tuition likely would deprive some adherents of access to religious instruction for their children. But this Court has long recognized the important right of parents “to direct the upbringing and
education of children under their control.” Pierce v.
Society of the Sisters of the Holy Names of Jesus and
Mary, 268 U.S. 510, 534-35 (1925); Washington v.
Glucksberg, 521 U.S. 702, 720 (1997) (holding that
“the ‘liberty’ specially protected by the Due Process
Clause includes the right[] … to direct the education
and upbringing of one’s children”); Meyer v. Nebraska,
262 U.S. 390, 399-401 (1923) (Due Process Clause includes the right of parents “to control the education”
of their children). Indeed, in Pierce, this Court specifically upheld the right of parents to send children to
religiously affiliated schools. 268 U.S. at 534-35. As
this Court recognized, parents have a “high duty” to
prepare their children “for additional obligations.” Id.
at 535. As part of this duty, parents may well choose
to send their children to religious schools—counting
on those schools to not only teach their children to
read and write but also for its teachers to model and
instruct their children in a faithful life.

17
CONCLUSION
The judgments should be reversed.
Respectfully submitted.
DONALD M. FALK
Counsel of Record
Mayer Brown LLP
3000 El Camino Real
Palo Alto, CA 94306
(650) 331-2030
dfalk@mayerbrown.com
ROGER V. ABBOTT
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006
Counsel for Amicus Curiae
FEBRUARY 2020

